I

©■ O ^ 4

IN THE
SUPREME COURT OF THE UNITED STATES

':

RANDALL SQOTT OVERTON - PRO SE PEIITIQNEH
l

r- -

; •. •

VS.

MATT MACAULEY, WARDEN - RESPONDENT
i

ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES O0URT OF APPEALS FOR THE SIXTH CIRCUIT

PRO SE PETITION FOR WRIT OF CERTIORARI

Randall Scatt Overton #807506
BELLAMY CREEK CORRECTIONAL FACILITY
1727 West Bluewater Highway
Ionia, Michigan
48846
Pro se Prisoner Petitioner

(:■

QUESTIOft(S) PRESENTED

I. Whether the United States Court of Appeals for the Sixth Circuit, in
denying Petitioner's appeal, resulted in a decision of an important federal
question in a way that conflicts with this Court's decisions in Kinship and
Jackson, where Petitioner's State-court conviction of criminal sexual conduct
-first-degree was obtained in violation of the Due Process Clause, where the state
prosecution failed to meet its constitutional burden of proving beyond a
reasonable doubt every element of the offense with which Petitioner was charged?
II. Whether the United States Court of Appeals for the Sixth Circuit, in
denying Petitioner's appeal, resulted in a decision of an important federal
question in a way that conflicts with this Court's decisions in Bouie and Lanier,
where the state trial court and the Michigan Court of Appeals, in violation of the
Due Process Clause, applied a novel construction of a criminal statute that
depended the statutes narrow and precise language to include "self-penetration" to
the statute's definition of "sexual penetration" that was unexpected and
indefensible and then applied the novel construction retroactively, and in doing
so, deprived Petitioner of the "fair warning" required by the Due Process Clause
that, under the criminal statute, Petitioner's alleged conduct was criminalized?

-II-

LIST OF PARTIES
Pursuant to S.Ct.R. 14.1(b), a list of the parties involved in the court
whose judgement is sought to be reviewed are;
Dana Nessel
Michigan Attorney General
Criminal Appellate Division
P.0. Box 30217
Lansing, Michigan
48909
-and*
Kym L. Worthy
Wayne County Prosecuting Attorney
1441 St. Antoine, Suite 1106
Detroit, Michigan
48226

-III-

TABLE OF OCWUNTS
P9ge(s)
Question(s) Presented

II

List of Parties .......

III

Table of Contents

IV

Table of Cited Authorities

V

Opinions Below

VIII

Statement of Jurisdiction

*«••••»*** a s r « ^ «

Constitutional Provisions

XI.
XII

Statement of the Case

.. 1

Reasons for Granting the Writ

. 2

Conclusion ............. .

38

Relief Requested

40
TABLE OF APPENDICES

App. A

21,22,28

App. B. ..

21

App. C.

21

App. D.

7,12,13,15

App. E.

.... 8,9,10

App. F

ti

15,25,38,39

•

App. G.

. 20

App. H.

20

App. I

20

-IV-

TABLE OF CITED AUIHORITIES
Page(s)

U.S. Supreme Court Cases'
Apprendi v. New Jersey, 530 U.S. 466 (2000)

5

»••••••••

13

Bilski v. Kappoe, 561 U.S. 593 (2010) .....
Bouie v. City of Columbia, 378 U.S. 347 (1967)

10,16,31,33,35

Carmell v. Texas, 529 U.S, 513 (2000) ......

31

Crawford v. Washington, 541 U.S. 36 (2004) .

5

Eyitts v. Lucey, 469 U.S. 387 (1985)

***••••## 361 *31

. 10

Fiore v. White, 531 U.S. 225 (2001)

4,6,10,12,14,38

In re Winship, 397 U.S. 358 (1970) .
Jackson v. Virginia, 443 U.S. 307 (1979)

•■••••

-• « *

4,5,6,10,11
12,14,15,38
31,32

Marks v. United States, 430 U.S. 188 (1997)
MsBoyle vi United States, 283 U.S. 25 (1931)
Rabe v. Washington, 405 U.S. 313 (1972)

•*•••••

. 16,26,31
•*•••

16,26

16,31,33,34

Rogers v. Tennessee, 532 U.S. 451 (2002)

5

Smith v. United States, 508 U.S. 223 (1993)
Strickland v. Washington, 466 U.S. 668 (1984)

.. 36,37

United States v. Lanier, 520 U.S. 259 (1997)

26,27,30
2

Wiggins v. Smith, 539 U.S. 510 (2003) .
Williams y. Taylor, 529 U.S. 362 (2000)

•*••

2,11,38,39

Michigan Cases
In re MCI Telecom Complaint, 460 Mich 396 (1999)
People v. Hack, 219 Mich App 299 (19%)

•••••

•»«•
•••• •

10

10,28,34

People v. Jahner, 433 Midi 490 (1989) ..

13,23,30,33

People v. Kimble, 470 Mich 305 (2004) ..

..... 17,18

People v. Overton, 500 Midi 922 (2016) .

20

People v. Overton, 497 Mich 941 (20i4) .

25,26

-V-

Page(s)

Michigan Cases (Cent.)

5

People v. Phelps, 288 Mich App 123 (2010) ...........
People v. Reed, 449 Mich 375 (1995) ........

17,18,36

People v* Sharp, 502 Mich 313 (2018) ...... .

23,24,33

People v. Swain, 288 Midi App 609 (2010) ......

17,18,36

People v. TUrmon, 417 Mich 638 (1983) ...........

10,26,30
32

People v. Wilson, 500 Mich 521 (2017) .........
TXtmer v. Auto Club Ins. Ass'n, 448 Mich 22 (1995)

••••••

••••

9

Miscellaneous Cases
..... 27,29

Guam v. Quidachay, 374 F.3d 820 (9th Cir.2004) .........
Kalsey v. Pope, 809 F.3d 849 (6th Cir.2016) ......

22

Kirby v. State, 625 So.2d 51 (Fla.Ct.App.1993) ...

22,28,34

Maples v. Stegall, 340 F.3d 433 (6th Cir.2008) ...

••••

11

People v. Keeney, 29 Cal. Rptr.2d 451 (Ca.Ct.App.1994)

...... 22,28,34

State v. Bryant, 670 A.2d 766 (R.I.Sup.Ct.1996)

12,13,29,30,34

#••

...... 12,29

State v. Girouacd, 561 A.2d 882 (R.I.1989) ....
United States Constitutional Provisions

..15,19,36

U.S.Const.Amend.VI. ......................... .

3,4,5,15,16
18,19,20,27,36

U.S»Gonst=Amend.XIV. ..................

••••

31

Article I* §10, Cl. 1
United States Statutes
28 U.S.C. § 1746 ......

40

28 U.S.C. § 2254 ......

2,11,16

28 U.S.C. § 2254(d) ..

2,11

28 U.S.C. § 2254(d)(1)

• r

2,11,14

23 U.S.C. § 2254(d)(2)

2,11,14

28 U.S.C. § 2254(e)(1)

11
-VI-

Michigan Constitutional Provisions

Page(s)

Mich Const 1963, art I, § 10 .......

31

Mich Const 1963, art I, § 17 .......

3,15

Mich Const 1963, art I, § 20 .......

7,15

Michigan Statutes
MCL § 8.3a ........

...................16,21

MCL § 750.52Qa(r) . • • • • •

• 9 • • •

5,7,8,9,10,12,13,14,15
16,18,19,21,22,23,24
26,27,28,29,30,32
33.34.35.37.38.39

, _ MCL § 750.520b(l)(a)

....... 3,4,5,6,7,8,9,11
13,14,16,18,19
21,23,25,27,28,29
32.33.34.37.38.39

Ml § 750.520b(2)(b)

39

MCL § 750.520n ......

39

MCL § 791.285(l)(a) .

39

Michigan Court Rules
MCR 6.500 .................

17,19,20,36

MCR 6.502(A) ............

17

MCR 6.502(G)(1) .....

17

MCR 6.504(A) ............

17

MCR 6.508(D) ............

17

MCR 6.508(D)(1) .......

.. 17,18

MCR 6.508(D)(2) .......

.. 17,18

MCR 6.508(D)(3) .......

... 17,36

MCR 6.508(D)(3)(a) ..

17,18,36

MCR 6.508(D)(3)(b) ..

. 17,36

MCR 6.508(D)(3)(b)(i)

.. 18,36

-VII

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Pro se Petitioner,

Panrtoll

Scott Overton ("Petitioner"),

respectfully

requests that this Honorable Court issue a Writ of Certiorari to review the
judgement(s) presented below, as both the United States Court ©f Appeals for the
Sixth Circuit and the Michigan Supreme Court has decided an important federal
question in a way that conflicts with relevant decisions of this Court, and has
\

.

■

'

'

decided an important question of federal law that has not been, but should be,
settled by this Court.
OPINIONS BELOW
Opinions/Orders ©f the Sixth Circuit Court ©f Appeals
In Overton v. Macauley, United States Court of Appeals for the Sixth Circuit
("Sixth Circuit Court of Appeals"), Case No. 19-1736,

the July 31, 2020,

Opinion/Order denying Petitioner's appeal on the June 4, 2019, decision of the
United States District Gourt for the Eastern District of Michigan ("U.S. District
Court"), denyic^ Petitioner's Petition for Writ of Habeas Corpus, under 28 U.S.C.
§ 2254. The July 31, 2020, Opinion/Order of the Sixth Circuit Court of Appeals,
appears at Appendix-A to the petition and is unpublished.

App. A.

In Overton v. Macauley, Sixth Circuit Gourt of Appeals, Case No. 19-1736, the
November 19, 2019, Order denying Petitioner's August 20, 2019, Motion to Expand
Certificate of Appealability. The November 19, 2019, Order of the Sixth Circuit
Gourt of Appeals, appears at Appendix B to the petition and is unpublished.
App. B.
Order of the U.S. District Court
In Overten v. Trierweiler [Macauley], U.S. District Court, Case No. 2:17-cv-VIII-

19892, Order denying Petitioner's Petition far Writ of Habeas Corpus, under 28
U.S.C. § 2254, but Granting Certificate of Appealability ("Q0A") with respect to
Petitioner's lack-of-notice claim. The June 4, 2919, Order of the U-S. District
Court, appears at Appendix C to the petition and is unpublished.

App. G.

Opinions/Orders of Michigan State Courts
In People v. Overton, Michigan Court of Appeals ("MOQA"), Docket No. 398999,
the October 31, 2013, Per Curiam Opinion affirming Petitioner's convictions and
sentences on appeal as ef right (direct appeal) from the Judgement of Sentence
that was entered against Petitioner on £me 21, 2911, in the Wayne County Circuit
Court, Case No. 11-002103-PC. The October 31, 2913, Per Curiam Opinion ef the
MCDA, appears at Appendix D to the petition and is unpublished.

App. D.

In People y. Overton, Michigan Supreme Gourt ("MSC"), Case No. 148347, the
•Ame 13, 2914, Order scheduling oral argument on whether to grant the application
for discretionary review of the October 31, 2913, decision of the MOQA with
respect as to whether the evidence was sufficient to show that Petitioner engaged
. in the "intrusion, however slight, or any part of a person's body ©r any object
into the genital or anal openings of another person's body," as required under MCL
75©.529a(r), to sustain his conviction of first-degree sexual conduct under MCL
759,520b(l)(a). The June 13, 2914, Order of the MSC, appears at Appendix E to the
petition and is published at 496 Mich 853 (2914).

App. E.

In People v. Overton, MSC, Case No. 148347, the December 29, 2914, Order,
following oral arguments on the application for leave to appeal the October 31,
2913, decision of the MGOA, denying Petitioner's application. The December 29,
2914, Order of the MSC, appears at Appendix F to the petition and is published at
497 Mich 941 (2914).

App. F.

Opinions/Qrders of Michigan State Courts Post Conviction Remedies
In People v. Overton, MSC, Case No. 153943, the December 28, 2916, Order
denying Petitioner's application for leave to appeal the April 28, 2916, Order of
-IX-

the MOOA denying Petitioner' s application for leave to appeal the Wayne County
Circuit Court's decision denying Petitioner's Motion for Relief from Judgement
under MCR 6.500 et seq. The December 28, 2016, Order of the MSC, appears at
Appendix 6 to the petition and is published at 590 Mich 922 (2016).

App. G.

In People v. Overton, MOOA, Case No. 530875, the April 28, 2016 Order denying
Petitioner's delayed application for leave to appeal the October 5, 2015, Order of
the Wayne County Circuit Court denying Petitioner's Motion for Relief from
Judgement under MCR 6.500 et seq. The April 28, 2016 Order of the MCQA, appears at
Appendix H to the petition and is unpublished.

App. H.

In People v. Overton, Wayne County Circuit Court, Case No. 11-QQ21Q3-PC, the
0cteber 5, 2015, Order denying Petitioner's Motion for Relief from Judgement under
MCR 6.500 et seq. The October 5, 2015, Order of the Wayne County Circuit Gourt,
appears at Appendix I to the petition and is unpublished.

App. I.

In People v. Overton, Wayne County Circuit Gourt, Case Ne. 11-0Q21Q3-FC, the
January 30, 2012, Order denying Petitoner1 s Motion for a New Trial. The January
30, 2012, Order of the Wayne County Circuit Court, appears at Appendix J to the
petition and is unpublished.

App. J.

-X-

STATEMENT OF JURISDICTION
This petition for a writ ©f certiorari involves the July 31, 2020, decision
of the United States Court ©f Appeals for the Sixth Circuit that conflicts with
relevant decisions of this Court. S.Ct.R. 10(c). Because this petition is timely,
S.Ct.R. 13(1), jurisdiction to hear and decide this petition lies with this
Honorable Court under 28 U.S.C. § 1254(1).

-XI-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitution of the United States
Article I, § 10, Cl. 1, ©f the United States Constitution provides:
No State shall enter into any Treaty, Alliance, or Confederation,
grant letters of Marque and Reprisal; coin Money; a&nit Bills of
Credit; make any Thing but gold and silver Coin a Tender in
Payment of Debts; pass any Bill of Attainder, ex post facto Law,
or Law impairing the Obligation of Contracts, or grant any Title
of Nobility.
The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the.accused shall enjoy the right to
a speedy and public trial, by an impartial jury of the State and
district wherein the crime shall have been committed, which
district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
The Eighth Amendment to the United States Constitution provides:
Excessive bail shall not be required, nor excessive fines imposed,
nor cruel and unusual punishments inflicted.
The Fourteenth Amendment to the United States Constitution provides;
§ 1. All persons bom or naturalized in the United States and
subject t© the jurisdiction thereof, are citizens ©f the United
States and of the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges ©r
immunities of citizens ©f the United States; nor shall any State
deprive any person of life, liberty, ©r property, without due
process ©f law; nor deny t® any person within its jurisdiction the
equal protection of the laws.
Constitution of the State of Michigan
Mich Const of 1963, art I, § 16, provides:
Excessive bail shall not be required; excessive fines shall not be
imposed; cruel or unusual punishment shall not be inflicted; nor
shall witnesses be unreasonably detained.
Mich Const of 1963, art I, § 17, provides:
N® person shall be compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty or property,
without due process of law.

-XII-

Mich Coast of 1963, art I, § 20, provides:
In every criminal prosecution, the accused shall have the right to
have the assistance of counsel for his or her defense; to have an
appeal as a matter of right, except as provided by law an appeal
by an accused who pleads guilty or nolo contendere shall be by
leave of the court; and as provided by law, when the trial court
so orders, to have such reasonable assistance as may be necessary
to perfect and prosecute an appeal.
Michigan Compiled Laws ("MCL")
MGL § 8.3a (Construing Statutes), provides:
All words and phrases shall be construed and understood according
to the common and approved usage of the language; but technical
words and phrases, and such as may have acquired a peculiar and
appropriate meaning in the law, shall be construed and understood
* according to such peculiar and appropriate meaning.
MCL § 75©.52Gb(l)(a), provides:
(1) A person is guilty of criminal sexual conduct in the first
degree if he or she engages in sexual penetration with another
person and if any of the following circumstances exists:
(a) That other person is under 13 years of age.
MCL 750.52Ga(q), provides:
"Sexual contact" includes the intentional touching of the victim's
or actor's intimate parts or the intentional touching of the
clothing covering the immediate area of the victim's intimate
parts, if that intentional touching can reasonable be construed as
being for the purpose of sexual arousal or gratification, done for
a sexual purpose, or in a sexual manner for: (i) revenge; (11) to
inflict humiliation; ©r (111) out of anger.
MCL 750.520a(r), provides:
"Sexual penetration" means sexual intercourse, cunnilingus,
fellatio, anal intercourse, or any other intrusion, however
slight, of any part of a person's body or of any object into the
genital or anal openings of another person's body, but emission of
semen is not required.
MCL 75Q.52Qb(2)(b), provides:
(2) Criminal sexual conduct in the first degree is a felony
punishable as fellows:
(b) For a violation that is committed by an individual 17 years of
age or older against an individual less than 13 years of age by
imprisonment for life or any term of years, but not less than 25
years.
-XIII-

MCL 75G.52Qb(2)(d), provides:
(2) Criminal sexual conduct in the first degree is a felon/
punishable as follows:
(d) In addition to any other penalty imposed under subdivision (a)
or (b), the court shall sentence the defendant to lifetime
electronic monitoring under section 52Qn.
MCL 750.520n(l), provides:
(1) A person convicted under section 520b or 520c for criminal
sexual conduct committed by an individual 17 years old or older
against an individual less than 13 years of age shall be sentenced
to lifetime electronic monitoring as provided under section 85 of
the corrections code of 1953, 1953 PA 232, MCL 791.285.
MCL 791.285(1)(a), provides:
(1) The lifetime electronic monitoring program is established in
the department. The lifetime electronic monitoring program shall
implement a system of monitoring individuals released from parole,
prison, or both parole and prison who are sentenced by the court
to lifetime electronic monitoring. The lifetime electronic
monitoring program shall accomplish all of the following:
(a) By electronic means, track the movement and location of each
individual from the time the individual is released on parole or
from prison until the time of the individual's death.

-XIV-

STATEMENT OF THE CASE
This case is before this Honorable Court in a Petition for a Writ of
Certiorari to the United States Court of Appeals for the Sixth Circuit. Petitioner
was charged with, and convicted of, inter alia, Criminal Sexual Conduct - FirstDegree, MCL § 750.520b(l)(a), by a jury in a Michigan trial court. Petitioner's
conviction was based on Complainant's allegation that her mother and Petitioner
would subject her to "virginity" checks after Complainant was found by her mother
masturbating with a back-massager. Believing that her daughter may have injured
herself, Complainant's mother and Petitioner took Complainant to a doctor. No
injury or signs of sexual abuse were noted by the attending doctor.
During one of the "virginity" checks, Complainant, alleges that Petitioner
had her lie on the bed and remove her clothing. According to Complainant,
Petitioner, informed her that her vaginal opening appeared bigger, and that sne
informed Petitioner that it appeared bigger because she had begun using tampons.
Trial Trans. 6/2/11, at p.64. Complainant further alleged that she believed she
had put a tampon in the wrong hole. Id., at p.66. Complainant claimed that at that
time, Petitioner, held a full-length mirror in front of her legs, id., and that
she Inserted her own finger into her vagina, allegedly at Petitioner's request to
confirm where the tampon goes. Id., at pp.65-66.
Despite the lack of any allegation that Petitioner had penetrated Complainant
in any manner, which, under Michigan law, was required to sustain a conviction of
CSC-1 under MCL § 750.520b(l)(a), the trial court and the Michigan Court of
Appeals engaged in a novel construction of the statutory definition of "sexual
penetration" contained under MCL § 750.520a(r), to include, as an element, "self­
penetration." Prior to Petitioner's conviction, MCL § 750.520a(r), as written,
regard the sexual penetration of one person by another. In applying a novel
construction to the criminal statute, the Michigan Court of Appeal expanded the
narrow and precise language of the statute to include "self-penetration", in
violation of the Due Process Clause because Petitioner did not receive "fair
warning" that nis conduct was criminal under the statute, which resulted in an
amendment to a criminal statute that was neither foreseeable or defensible.
Petitioner, also argued that his conviction of CSC-1 was obtained in violation of
the Due Process Clause where the prosecution failed to prove beyond a reasonable
doubt each element of the offense with which Petitioner was charged, in
particular, sexual penetration of one person by another person. The U.S. District
Court and the Sixth Circuit Appeals Court has rejected Petitioner's arguments for
reasons discussed in this petition.
-1-

REASONS FOR GRANTING THE WRIT
I. The United States Court of Appeals for the Sixth Circuit has
Decided an Important Federal Question Regarding the Due Process
Clause of the Fourteenth Amendment to the United States
Constitution in a Way that Conflicts with Relevant Decisions of
this Honorable Court.
Governing Standard of Review
28 U.S.C. § 2254
Pursuant to 28 U.S.C. § 2254(d)(l)-(2), An application for a writ of habeas
corpus on behalf of a person in custody pursuant to the judgement of a State court
'rS

snail hot be granted with respect to any claim that was adjudicated, oh thein State court proceedings unless the adjudication of the claim—
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in
the State court proceeding.
Wiggins v. Smith, 539 U.S. 51©, 52© (2@©3)(citation omitted).
In Williams v. Taylor, 529 U.S. 362, 413 (20©©), this Honorable Court made
clear that the "unreasonable application" prong of § 2254(d)(1), permits a federal
habeas court to"grant the writ if the state court identifies the correct
governing legal principle from this Court’s decisions but unreasonably applies
that principle to the facts" of petitioner’s case. Wiggins, 539 U.S., at 520
(citation omitted).

In order for a federal court to find a state court's

application of [this Court's] precedent "unreasonable," the state court’s decision
must have been more than incorrect or erroneous. Id. (citation omitted). The state
court's application must have been "objectively unreasonable." Id., at 520-521
(citing Williams, 529 U.S., at 4©9).
Correct Governing Legal Principle
The Fourteenth Amendment

-2-

The Due Process Clause of the Fourteenth Amendment to the United States
Constitution, in relevant part, provides that:
"No State snail ... deprive any person of life, liberty, or
property, without due process of law[
U.S.Gonst.Amend.XIV. (ellipses and alteration added); see also Mich Const 1963,
art I, § 17.
Insufficient Evidence to Support Petitioner's Conviction of CSC-I
The gravamen of Petitioner's claim is that the record of evidence that was
adduced in the state-trial court's proceedings is constitutionally insufficient to
sustain his conviction of Criminal Sexual Conduct - First-Degree ("CSC-l") under,
MOL § 750.52Gb(l)(a), in that, the prosecution failed to meet its federal and
state constitutional duty of proving "beyond a reasonable doubt" each element of
the offense with which Petitioner was charged. Petitioner's conviction of CSC-I is
premised entirely upon Complainant's conflicting testimony as there was no other
evidence involved.
During trial, Complainant, testified that her mother made her take her pants
and underwear off, open her legs, and inspected her "private areas." Trial Trans.
6/2/11, at p.41, p.45. Her mother inspected her vagina and called Petitioner into
the room to check her vagina as well. Id., at p.43. Complainant testified that
Petitioner nor her mother, touched her. Complainant's mother and Petitioner, later
took her to a doctor to be checked. Id., at p.44. The alleged "virginity checks"
began when Complainant was 11 years old and her mother had walked in on her
masturbating with a back massager.

Complainant's mother was worried chat

Complainant may have injured herself. Id. Dr. Sara Moussa, testified that she had
examined Complainant, and that, the exam results were normal and that she did not
observe any signs of physical or sexual abuse. Id., at pp.132-135.
Complainant went on to testify that on one occasion, during a 'Virginity
check," Petitioner allegedly informed Complainant that her vaginal opening
-3-

appeared bigger, and that she informed Petitioner that it appeared bigger because
she had begun using tampons. Trial leans. 6/2/11, at p.64. Complainant also told
Petitioner that she believed she had put a tampon in the wrong hole. Id., at p.66.
According to the Complainant, at that time, Petitioner, held a full-length mirror
in front of her legs, id., and that she inserted her own finger in her vagina,
allegedly, at Petitioner's request to confirm "where the tampon goes." Id., at
pp.65-66. Complainant testified that Petitioner did not touch her or penetrate her
with his finger. Id., at p.HS. Prosecution witness, Det. Scott Galeski, of the
Wyandotte Police Department, testified during the preliminary examination, that
during his interview with Complainant, Complainant informed him that she was the
one who went to Petitioner and asked him how to put in a tampon. Prelim. Exon.
2/25/11, at p.lQQ.
Despite of the fact that there was no allegations by Complainant that
Petitioner engaged in sexual penetration with her, based on the testimony above,
Petitioner was convicted of CSC-I under MCL § 75Q.520b(l)(a). As demonstrated
herein below, Petitioner's conviction of CSC-I under, MCL § 750.520b(l)(a), was
obtained in violation of the Due Process Clause of the Fourteenth Amendment to the
United States Constitution. U.S.Gonst.Amend.XIV.
"Clearly Established” Federal Law
At the time of the state court's decision in this case, this Honorable Court,
first, in In re Winship, 397 U.S. 358 (1970), and reaffirmed in Jackson v.
Virginia, 443 U.S. 307 (1979), "clearly established" the legal principles that
govern claims of insufficient evidence to support a criminal conviction. In
Kinship, the Gourt neld for the first time that the Due Process Clause of the
Fourteenth Amendment protarts a defendant in a criminal case against conviction
"except upon proof beyond a reasonable doubt of every fact necessary to constitute
the crime with which he is charged." Jackson, 443 U.S., at 315 (citing Kinship,
397 U.S., at 364) (emphasis added). Winship, said this Court in Jackson,
-4-

presupposes as an essential of the due process guaranteed by the Fourteenth
Amendment that no person shall be made to suffer the onus of a criminal conviction
except upon sufficient proof — defined as evidence necessary to convince a trier
of fact beyond a reasonable doubt of the existence of every element of the
offense. Jackson, 443 U.S., at 316. In the instant case, even "after viewing the
evidence in the light most favorable to the prosecution, [no] rational trier of
fact could have found the essential elements of the crime [of CSC-l] beyond a
reasonable doubt." Id., at 319 (alteration added).
GSC-I Under MCL § 750.520b
The statute under which Petitioner was convicted of CSC-1, states as follows:
(1) A person is guilty of criminal sexual conduct in the first
degree if he or she engages in sexual penetration with another
person and if any of the following circumstances exists:
(a) That other person is under 13 years of age.
MCL § 750.52Gb(l)(a). In turn, "sexual penetration" is parsed as follows:
'

‘-iy.

sexual intercourse, cunnilingus, fellatio, anal intercourse, or
any other intrusion, however slight, of any part of a person's
body or of any object into the genital or anal openings of another
person's body, but emission of semen is not required.
MCL § 75Q.52Qa(r).
When a defendant pleads not guilty to charges, all elements of the criminal
offense are "in issue." People v. Phelps, 288 Mich App 123 (2010)(citing Crawford
v. Washington, 541 U.S. 36 (2004)); see also Apprendi v. Mew Jersey, 530 U.S. 466,
478 (2000). The statutory language of MCL § 75Q.S20b(l)(a) and MCL § 750.520a(r),
is clear and unambiguous, and when construed according to its plain and ordinary
language, People v. Stone, 463 Mich

558 , 563 (2Q01)(citing Smith v. United

States, 508 U.S. 223 , 227 (1993)), and when read in pari materia, to sustain
Petitioner's conviction of CSC-1 under, MCL § 75Q.520b(l)(a), the prosecution was
required

by

the

Due

Process

Clause

of

the

Fourteenth

Amendment,

U.S.Const.Amend.XIV., to prove the following elements beyond a reasonable doubt:
-5-

(1) that the Petitioner engaged in sexual penetration with another person (2) who
was under 13 years of age. MCL § 75G.520b(l)(a); see also Michigan Criminal Jury
Instructions ("Mich. Crim. J.I.") 20.1 (2)(d)(providing that, in order to convict a
person of CSC-1 under, MCL § 75Q.520b(l)(a), the prosecution must prove that,
"[t]he defendant engaged in a sexual act that involved entry by any part of one
person's body or some object into the genital opening of another person's
body")(alteration added). There was a complete lack of any evidence to support the
requisite elements of "sexual penetration" with "another person," both of which
are

required

to

support

Petitioner's

conviction

of

CSC-I

under,

MCL

§

750.520b(l)(a). Because the prosecution did not sustain its burden of proving the
essential and necessary elements of "sexual penetration" with "another person,"
beyond a reasonable doubt, id., Petitioner's conviction of CSC-I under, MCL §
75Q.520b(l)(a), cannot be said to have been obtained in accordance with this
Court's governing due process legal principles that were "clearly established" in
Winship and Jackson, at the time of the state court's decision.
As set forth herein above, because there was no evidence in this case, it
would be impossible for a rational trier of fact to conclude that the elements of
"sexual penetration" with "another person” were met beyond a reasonable doubt as
required by the Due Process Clause of the Fourteenth Amendment under, Winship and
Jackson.
In the case at hand,

Petitioner's conviction of CSC-I under, MCL §

750.520b(l)(a), was obtained by the prosecution on the basis of an erroneous
instruction that the state trial court gave to the jury that essentially reduced
the quantum of evidence:
"To prove this charge, the prosecutor must prove each of the
following elements beyond a reasonable doubt: First, that the
Defendant Overton, engaged in a sexual act that involved entry
into [D.P.J's genital opening, by (D.P.j's finger. Any entry, no
matter how slight, is enough. It does not matter whether the
sexual act was completed, or if semen was ejaculated."

-6-

Trial Trans. 6/7/11, at pp.5-11; Mich. Crim. J.I. 20.1(2)(d). Under

the

trial

court's erroneous instruction to the jury, Petitioner was convicted of CSC-I under
MCL § 75Q.520b(l)(a), with less evidence than was required.
On Direct Appeal in the Michigan Court of Appeals
On direct appeal as of right to the Michigan Court of Appeals ("MOQA"), Midi
Const 1963, art I, § 20, in Docket No. 308999, with respect to his conviction of
CSC-1 under

MCI. § 750.52Qb(l)(a), Petitioner, argued that he could not be

convicted of CSC-1 under, MCL § 750.52Qb(l)(a), where the evidence adduced at
trial disclosed only that Complainant used her own finger to digitally penetrate
her vagina, allegedly at the request of Petitioner. Petitioner, went on to argue
.that such conduct does not meet the element of "sexual penetration," as defined
under, MCL § 75Q.52Qa(r).
In rejecting Petitioner's argument and affirming his convictions, the MQOA
opined as follows:
In this case, the evidentiary basis for [Petitioner's]
conviction was the victim's testimony that she inserted her finger
inside of her vagina because [Petitioner] instructed her to do so
under the pretext of teaching her how to use a tampon. A rational
trier of fact could find on the basis of this evidence that the
prosecution proved beyond a reasonable doubt that [Petitioner]
engaged in sexual penetration with the victim. The fact that the
victim's vagina was penetrated by her own finger, instead of one
of [Petitioners] body parts, does not mean that the act did not
constitute sexual penetration under MCL 750.52Qa(r). Sexual
penetration under MCL 750.520a(r) includes an "intrusion • • • of
any part of a person's body ... into the genital ... opening[] of
another person's body ...." The use of the words "any part of a
person's body" is another way of saying "any human body part."
Thus, sexual penetration under MCL 750.520a(r) includes an
intrusion of any human body part into the genital opening of
another person. Here, [Petitioner] was engaged in the intrusion of
a human body part - a finger - into the genital opening of another
person’s body - the victim's vagina - when the victim obeyed
[Petitioner's] instruction to digitally penetrate herself under
the pretext of teaching her how to use a tampon.
App. D., at p.4 (empnasis and alteration added)(ellipses in original).
Here, the distorted construction of MCL § 750.52Qa(r), essentially amounts to
a judicial amendment to MCL § 75G.520a(r), by the MCOA tc encompass the conduct
-7-

with which Petitioner was charged.
Discretionary Review in the Michigan Supreme Court
Petitioner, next sought discretionary review of the October 31, 2013 decision
of the MCQA affirming his convictions and sentences, App. D., in an application
for leave to appeal to the Michigan Supreme Gourt ("MSC"), in Case No. 148347.
App. E. On June 13, 2014, in an Order, the MSC directed its clerk to:
schedule oral argument on whether to grant the application or to
take other action ... The parties shall submit supplemental briefs
... addressing whether the evidence was sufficient to show that
the defendant engaged in the "intrusion, however slight, or any
part ©f a person's body or of any object into the genital or anal
openings of another person's body," MCL 75Q.S2Qa(r), such that his
conviction of first-degree criminal sexual conduct under MCL
750.520b can be sustained.. • •
App. E. (emphasis and ellipses added). Following supplemental briefing and oral
arguments having been heard, the MSC denied Petitioner's application for leave to
appeal in an Order dated, December 29, 2014, citing, "because we are not persuaded
that the questions presented should be reviewed by this Court." App. E.
Two Justices of the MSC, Justice McGonnack and Justice Cavanagh, filed
dissenting opinions, in which both wrote that they would have vacated Petitioner's
conviction of CSC-I. Specifically, Justice McCormack, opined that:
"As charged against the defendant, CSC-I requires 'engag[iqg]
in sexual penetration with another person' under the age of 13.
MCL 750.520b(l)(a) • • • • "
* * * * *

"The Court of Appeals was satisfied that the defendant "was
engaged in the intrusion of a human body part - a finger - into
the genital opening of another person's body - the victim's vagina
when the victim obeyed [the defendant's] instruction to digitally
penetrate herself under the pretext of teaching her how to use a
tampon.'" " In other words, the panel found that the defendant had
engaged in sexual penetration because he was responsible for the
victim's self-penetration. The Court of Appeals ignored the plain
language of the statute, however, which requires the intrusion of
'any part of a person's body' or 'any object' into 'another
person's body.' MCL 75Q.52Qa(r)."
* * * * *

"'Another' is not defined in the statute but "'[cjourts are
-8-

to accord statutory words their ordinary and generally accepted
meaning. ' Turner v. Auto dub Ins Ass'n, 448 Mich 22, 27 (1995).
The ordinary meaning of 'another' is, of course, someone else. In
addition, the article 'a' in the phrase 'any body part of a
person's body' underscores the statute's distinction between the
person performing the penetration, on the one hand, and the person
being penetrated, on the other. The Court of Appeals missed this
distinction."
* * * * *

"Nor can the victim's finger constitute an '"object'" for the
purposes of MCL 75G.520a(r). While '"object"' is not defined
within the statute, the ordinary meaning does not include body
parts. And it is reasonable to infer that the Legislature did not
view body parts as encompassed within the term '"object"' since
MCL 75Q.520a('r) specifically refers to them as a '"part of a
person's body'" and as separate from an "'object.'" If body parts
could be counted as objects, there would have been no need to
separately include '"any part of a person's body'" in the statute;
"'object'" could have done the work. Indeed, there is no authority
construing the victim's own finger as an object for the purposes
of MCL 75G.52Ga(r)."
*****

"Finally, the application of the CSC-I statute to the
defendant's conduct here is in conflict with the pattern of the
activities that are explicitly referred to in MCL 750.520a(r)
••••
* * * * *

"But the question is whether the defendant's instruction to
the victim and her action in response was actually an intrusion
"of any part of a person's body or of any '"object"' into
'"another person's body"' so that his 25-to 40-year sentence for
CSC-1 has support under the statute. The plain language of MCL
750.520b(l)(a) simply does not encompass the defendant's specific
conduct here. Accordingly, I would vacate the defendant's CSC-1
conviction."
App. E. (emphasis and single quotation marks added)(alteration in original).
In turn, Justice Cavanagh, wrote:
"Call me a '"textualist"' or a '"strict constructionist'" if
you must, but I agree with Justice McCormack's conclusion that
defendant's conviction for first-degree criminal sexual conduct
should be vacated because, on the basis of the plain language of
MCL 750.52Qa(r), there was insufficient evidence to establish that
defendant engaged in the '"intrusion, however slight, of any part
of a person's body or object into the genital or anal openings of
another person's body...."' (Etaphasis added). Specifically, I
agree that, under the plain language of the statute, a finger
cannot also constitute an "'object'" because to hold otherwise
-9-

would render surplusage the phrase '"part of a person's body,'”
contrary to the rules of statutory interpretation. In re MCI
Telecom Complaint, 46© Mich 396, 414 (1999)("[A] court should
avoid construction that would render any part of the statute
surplusage or nugatory.") • • • * "
*****

I agree with Justice McCormack that the text of the statute
unambiguously supports defendant and, as a result, it is up to the
Legislature to amend the statutory provision, and thus provide
adequate notice, if it wishes to clarify that the statute's plain
language is inconsistent with its true intent. See People v*
Unman, 417 Mich 638 , 655 (1983) (explaining the indisputable
proposition that due process requires that citizens "be apprised
of conduct which a criminal statute prohibits"). Accordingly, I
respectfully dissent."
App. E. (emphasis and ellipses in original).
This Court, in Fiore v. White, held that the Due Process Clause of the
Fourteenth Amendment forbids a State to convict a person of a crime without
proving the elements of that crime beyond a reasonable doubt. 531 U.S. 225, 229230 (2©91)(citing Jackson, 443 U.S., at 316$ Kinship, 397 U.S., at 358). Because
the statutory language of MCL § 75Q.520a(r) is clear and unambiguous, and when
construing every word according to its plain and ordinary meaning, taking into
account the context in which the words are used, People v. Hack, 219 Mich App 299,
3©5(1996)(citing MCL §

8.3a),

Petitioner's

alleged conduct of directing

Canplainant to insert her finger into her vagina is simply not proscribed under
MCL § 750.52Qa(r). Here, the Michigan Geurts' construction of MCL § 750.52Qa(r) to
encompass Petitioner's alleged conduct was so clearly at variance with the
statutory language, [and because it] ha[d] not the slightest support in prior
Michigan decisions, the state court's retroactive application of the new
interpretation cannot stand. See Bouie v. City of Golunbia, 378 U.S. 347, 356
(1967)(alteration added). In addition, under the plain language of MCL §
750.52Qa(r), a "finger" cannot constitute an "object" because to held otherwise
would render surplusage the phrase "part of a person's body," contrary to the
rules of statutory interpretation. In re MCI Telecom Complaint, 46© Mich, at 414.
-10-

Petition for Writ of Habeas Corpus
Following the exhaustion of his stated-court remedies with respect to his
claim of insufficient evidence to support his conviction of CSC-1 under, MCL
75Q.52Qb(l)(a), Petitioner, pursued federal review of his convictions in a
petition for a writ of habeas corpus, pursuant to 28 U.S.C. § 2254, in the United
States District Court - Eastern District of Michigan ("District Court"), in Case
No. 2:17-cv-10892, the Hon. Judge Nancy 6. Edounds presiding.
In rejecting Petitioner's claim of insufficient evidence, the District Court
concluded, in relevant part, that:
r:.:

"Petitioner's sufficiency-of-the?-evidence claim is a. non­
starter because it is based on a premise of state law rejected by
the state courts • • • [wjhat is essential to establish an element
of a crime, like the question whether a given element is
necessary, is a question of state law, of which federal habeas
review is not available • • • •

District Court's Opinion and Order, PagelD.1851-1852.
Under 28 U.S.C. § 2254, a federal court must entertain a claim by a state
prisoner that he or she is being held in "custody in violation of the Constitution
or laws or treaties of the United States." Jackson, 443 U.S., at 320-321. Due to
the deference that is owed to state court decisions in habeas corpus cases brought
pursuant to 28 U.S.C. § 2254, there is always a danger that federal courts will
simply parrot the conclusions of the state courts, and, if there is any support
for those conclusions, find the conclusions reasonable and not reviewable in
habeas corpus proceedings. See 28 U.S.C. § 2254(e)(1). It is easy, however, to
forget that federal review of state court decisions, although deferential,
involves a determination by the federal court whether the state court reached a
decision that was contrary to, or involved an unreasonable application of, clearly
established federal law, or resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence. Williams, 529
U.S., at 412-413 (emphasis added); Maples v. Stegall, 340 F.3d 433, 436 (6th
Cir.2003); 28 U.S.C. § 2254(d)(l)-(2).
-11-

:

Under this Court's decision in Winship, it is clear that a state prisoner who
alleges that the evidence in support of his state conviction cannot be fairly
characterized as sufficient to have led a rational trier of fact to find guilt
beyond a reasonable doubt has stated a federal constitutional claim. Jackson, 443
U.S •» at 321. The Jackson "standard must be applied with explicit reference to the
substantive elements of a criminal offense as defined by state law." Id., at 324,
n.16.
Although the Jackson "standard must be applied with explicit reference to the
substantive elements of a criminal offense as defined by state law," Jackson 443
U.S., at 324, n.16, the; MCOA judicial amendment of MGL § 75G.520a(r), to encompass
Petitioner's alleged conduct of directing Gcxqplainant to self-penetrate her vagina
under the definition of "sexual penetration" is a matter of first impression in
Michigan law and, is not, under the doctrine of stare decisis, a legally-binding
definition of "sexual penetration" as the judicial amendment to the statute is
contained in an unpublished per curiam opinion. App. D.
In support of Petitioner's position that a victim's self-penetration does not
fit within the statute's [MCL § 75Q.52Qa(r)] definition of "sexual penetration,"
Petitioner looks to a decision from a Supreme Court of another state. In State v.
Bryant, 670 A. 2d 776 (1996), defendant was charged with first-degree molestation
sexual assault under Rhode Island General Laws ("R.I. Gen. Laws") § 11-37-8.1, in
which it was alleged that defendant directed a 5 year old child to assert her Own
finger into her vaginal orifice. Bryant, 670 A.2d, at 779. The Rhode Island
statutes under which defendant was charged are virtually identical to MCL §
750.520a(r) and MCL 75Q.S20b(l)(a). There are two essential elements to firstdegree molestation sexual assault under R.I. Gen. Laws. § 11-37-8.1. First, the
defendant must engage in sexual penetration of the victim. Second, the victim is
age 13 or younger. State v. Girouord, 561 A.2d 882 (R.I. 1989). "'Sexual
Penetration' is defined as:

-12-

Sexual Intercourse, cunnilingus, fellatio, and anal intercourse,
or any other intrusion, however slight, by any part of a person's
body or by any object into the genital or anal openings of another
person's body, but emission of semen is not required."
■
R.I. Gen. Laws. § 11-37-1(8)(underlining in original)(emphasis added).
In reversing defendant's conviction of first-degree molestation sexual
assault under, R.I. Gen. Laws § 11-37-8.1, the Rhode Island Supreme Court held
that, under the state's rules of statutory interpretation, the state did not prove
a violation of the conduct prohibited by § 11-37-8.1 as defined in § 11-37-1.
Bryant, 670 A.2d, at 779. The Court in Bryant, went on to conclude that:
the trial justice in effect amended this definition by
including therein an interpretation that defendant engaged in
sexual penetration by directing the child to insert her own finger
into her vaginal orifice. Unfortunately, neither the trial justice
nor this Court has any authority to supplement or to amend a
statute enacted by the General Assembly.
Id. (emphasis added).
Under Michigan law, "[cjriminal statutes are to be strictly construed," and
cannot be extended beyond their clear and obvious language. People v. Jahner, 433
Mich 490, 498 (1989). As in Bryant, in the instant case, the state trial court and
the MGQA in effect, amended the definition of "sexual penetration" under MCL §
750.520a(r), by including an interpretation that Petitioner engaged in "sexual
penetration with another person" by directing Complainant to insert her own finger
into her vagina. See Bryant, 670 A.2d, at 779; App. D. Furthermore, neither the
state trial court nor the M00A has any authority to supplement or to amend a
statute enacted by the Michigan Legislature.
"When a statute includes an explicit definition, [a court] must follow that
definition." Bilski V. Kappes, 561 U.S. 593, 604 (2010)(alteration added). To
sustain a conviction of CSC-I under MCL § 750.520b(l)(a), requires the prosecution
to prove beyond a reasonable doubt the essential elements of "sexual penetration"
with "another person." Here, there was a camplete lack of any evidence that

-13-

, Petitioner engaged in "sexual intercourse

•••

or any other intrusion, however,

slight) of any part ef a person's body dr of any object into the genital

•••

opening!!] of another person's body • • • • " MGL 750.52Qa(r)(alteration and ellipses
added). Under the explicit definition of MCL § 750.520a(r), there is no doubt that
the prosecution was required to prove beyond a reasonable doubt that Petitioner
engaged in sexual penetration with another person, or any other intrusion, however
slight, of any part of a person's body or of any object into the genital opening
of another person's body. See Id.
While the state courts identified the correct governing legal principle from
.this ..Court's 'decisions in Jackson and Winship, the state courts applied tiiose
principles to Petitioner's case unreasonably, 28 U.S.C. § 2254(d)(1), and resulted
in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding. 28 U.S.C. §
2254(d)(2). Under Jackson and Winship, the Due Process Clause of the Fourteenth
Amendment, U.S. Const .Amend.XIV., requires the prosecution to prove beyond a
reasonable doubt every element necessary to constitute the crime with which he is
charged. Jackson, 443 U.S*, at 315. Here, the prosecution failed to prove beyond a
reasonable doubt the essential elements that Petitioner engaged in sexual
penetration with another person as required under MCL § 750.52Qa(r) in order to
support Petitioner's conviction of CSC-1 under MCL § 75@.52Qb(l)(a). As such, in
convicting Petitioner of CSC-I without proving the essential elements of that
crime beyond a reasonable doubt, not only resulted in an unreasonable application
of Jackson and Winship to the facts of the case at hand, but, because of a
complete lack of evidence of sexual penetration with another person, the state
court's application of Jackson and Winship was "objectively unreasonable," in
convicting Petitioner of CSC-1 without evidence sufficient enough to sustain his
conviction under the Due Process Clause. Even "after viewing the evidence in the
light most favorable to the prosecution, [no] rational trier of fact could
-14-

have found the essential elements of the crime [of CSC-l] beyond a reasonable
doubt." Jackson, 443 U.S., at 316 (alteration added). Petitioner is entitled to
habeas corpus relief on his claim of insufficient evidence.
With respect to Petitioner's insufficient evidence bo support his conviction
of CSC-l claim, reasonable jurists, including two Justices of the MSC, App. F.,
would find the District Court's assessment of these claims debatable or wrong.
II. The United States Court of Appeals for the Sixth Circuit has
Decided an lafsnrtant Federal Question Regarding the Due Process
Clause ef the Fourteenth Amendment and the Assistance of Counsel
Clause ef the Sir.th Amendment to the United States Constitution in
a Way that Conflicts with Relevant Decisions ef this Court.
Correct Governing Legal Principles
The Fourteenth and Sixth Amendnents
Ttva Due Process Clause of the Fourteenth Amendment to the United States
Constitution, in relevant part, provides that:
"No State shall ... deprive any person of life, liberty, or
property, without due process of law"[.j • • •
U.S.Const.Amend.XJV. (ellipses and alteration added); see also Mich Const 1963,
art I, § 17. In turn, the Assistance of Counsel Clause of the Sixth Amendment to
the United States Constitution, provides in part, that:
"In all criminal prosecutions, the accused shall enjoy the right
• • • to have the Assistance of Gounsel for his defense."
U.S.Gonst.Amend.VI. (ellipses added); Mich Const 1963, art I, § 20.
Oanstitutionally Insufficient Notice
Trie gravamen of Petitioner's claim is that he was provided constitutionally
inadequate notice that his alleged conduct of instructing Complainant, to insert
her finger into her vagina was proscribed by the statutory definition of "sexual
penetration", MCL § 750.52Qa(r), as held by the MOOA, for the first time, in an
unpublished per curiam opinion. App. D.
i!CIeariy Established” Federal Law
-15-

At the time of the state court's decision in this case, this Honorable Court,
in Beuie v. City of Columbia, 378 U.S. 347 (1964), held that Due Process requires
that a person accused of a crime must be given sufficient notice of his or her
prohibited conduct. U.S.Gonst.Anend.XIW Id., at 352. The Court's decision in
Beuie, "clearly established" the legal principle that, "before a criminal
liability may be imposed for violation of any penal law, due process requires
"fair warning

•••

of what the law intends." Id. (citing McBeyle v.United States »

283 U.S, 25, 27 (1931)). The Beuie Court recognised that "a deprivation of the
right of fair warning can result not only from vague statutory language but also
from an unforeseeable and retroactive judicial expansion of narrow and precise
statutory language," 378 U.S., at 353. The Court went on to explain that an
unforseeable judicial broadening of a statute is essentially an "ex post facto"
violation because it criminalizes conduct that was not criminal prior to the
court's new construction. Id., 353. Under Beuie, "[i]f a judicial construction of
a criminal statute is an unexpected and indefensible by reference to the law which
had been expressed prior to the conduct in issue, it must not be given retroactive
effect." Id., at 354.
More recently,

this Court,

Tennessee, clarified Bouie,

concluding that "judicial alteration of a common law doctrine of criminal law
violates the principles of fair warning, and hence must not be given retroactive
effect

•* •"

532 U.S. 451, 462 (20Q2). As demonstrated herein below, the state

court's unexpected broadening of MCL § 750.520a(r) to reach the Petitioner's
alleged conduct did not provide fair warning as required by the Due Process Clause
under Beuie. See also Babe v. Washington, 405 U.S. 313, 315 (1972).
Post-Conviction Motion for Relief from Judgement
After exhaustion of his state direct appeals, and prior to filing a petition
for writ of habeas corpus under 28 U.S.C. § 2254, Petitioner sought postconviction relief in a motion for relief from judgement, pursuant to MQR 6.500 et
-16-

seq., in the state trial court, in Case No. 11-0021Q3-PC. The procedure set forth
under MCR 6.500 et seq. provides for review of judgements in criminal cases no
longer subject to direct appeal to the Michigan Court of Appeals (*>1SC") or the
Michigan

Supreme

Court

("MSC").

People

v.

Reed,

449

Mich

375,

407

(1995)(dissenting opinion).
The request for relief under MCR 6.500 et seq. must be in the form of a
motion to set aside or modify the judgement. MCR 6.502(A). A defendant may file
one and only one motion for relief from judgement filed with regard to a
conviction. MGR. 6.562(G)(1). A motion for relief from judgement is to be presented
to the judge to whom the case was assigned at the time of the defendant's
conviction. People v. Swain, 288 Mich App 669, 629 (2016)(citing MCR 6.504(A)).
Pursuant to MCR 6.508(D), the defendant has the burden of establishing
entitlement to the relief requested. The court may not grant relief to the
defendant if the motion,
(1) seeks relief from the judgement of conviction and
sentence that still is subject to challenge on appeal pursuant to
subchapter 7.200 or subchapter 7.300;
(2) alleges grounds for relief which were decided against the
defendant in a prior appeal or proceeding under this subchapter,
unless the defendant establishes that a retroactive change in the
law has undermined the prior decision;
(3) alleges grounds for relief, other than jurisdictional
defects, which could have been raised on appeal from the
conviction and sentence or in a prior motion under this
subchapter, unless the defendant demonstrates
(a) good cause for failure to raise such grounds on appeal or
in the prior motion, and
(b) actual prejudice frem the alleged irregularities that
support the claim for relief.
Swain, 288 Mich App, at 630; MCR 6.508(D)(l)-(3)(a)-(b). The "good cause"
requirement of MCR 6.508(D)(3)(a), can be established by proving ineffective
assistance of counsel. Reed, 449 Mich, at 378; Swain, 288 Mich App, at 631 (citing
People v. Kimble. 470 Mich 305, 314 (2004)), As used in MCR 6..508(D)(3)(b),
"actual prejudice" means that, in a conviction following a trial, but for the
-17-

alleged error, the defendant would have had a reasonably likely chance of
acquittal* MCR 6.508(D)(3)(b)(i). The court may waive the "godd cause" requirement
of MCR 6.508(D)(3)(a), if it concludes that there is a significant possibility
that the defendant is innocent of the crime. Swain, 288 Mich App, at 630*
In his motion for relief from judgement, Petitioner, argued that he received
constitutionally inadequate notice that his alleged conduct of instructing
Complainant to insert her finger into her vagina was proscribed under MCL §
750.52Gki(r), and could constitute a conviction of Criminal Sexual Conduct - FirstDegree ("CSC-I"; under, MCL § 750.520b(l)(a). The trial court was not precluded
from granting Petitioner the relief requested, in that, Petitioners motion did
not allege grounds for relief from his judgement of conviction and sentence that
still is subject to challenge on appeal in the MGOA or MSC, MCR 6.508(D)(1); his
motion does not allege grounds that were decided against him in a prior appeal or
proceeding under MCR 6.500 et seq., MCR 6.508(D)(2); and though Petitioner does
allege grounds for relief, other than jurisdictional defects, which could have
been raised on appeal from the judgement of conviction and sentence, MCR
6.508(D)(3), he has "good cause" for his failure to raise the ground on appeal,
BCR 6.508(D)(3)(a), in the form of ineffective assistance of trial and appellate
counsel, Reed, 449 Mich, at 378; Kimble, 470 Mich, at 314, as well as "actual
prejudice" from the alleged irregularities that support his claim for relief, such
that, in a conviction following his trial, but for the alleged error, Petitioner
would nave had a reasonably likely chance of acquittal. MCR 6.508(D)(3)(b)(i).
Basis of Petitioners CSC-I Conviction
He instant case is a matter' of first impression in Michigan jurisprudence.
During the state-court trial, Complainant, testified that she was subjected to
"virginity checks" by Petitioner. On one occasion in particular, Complainant,
alleged that during one of the "virginity checks", Petitioner, allegedly told
Complainant that her vaginal opening appeared bigger and that, she informed
-18-

Petitioner that it appeared bigger because she had begun using tampons. Trial
Trans. 6/2/11, at p.64. She also told Petitioner that she believed she had put a
tanpon in the wrong hole. Id. According to Complainant, at that time, Petitioner,
held a full-length mirror in front of her legs, id., and allegedly, instructed
Complainant to insert her own finger into her vagina, to confirm "where the tampon
goes." Id., at pp.65-66. At no time did Petitioner touch her or penetrate her with
his finger. Id. It is this testimony upon which Petitioner’s conviction of
Criminal Sexual Conduct - First-Degree ("CSC-I") under, MCL § 750.520b(l)(a),
rests.
After exhausting his state-court remedies on direct appeal with respect to
his sufficiency-of-the-evidence claim, and having been denied relief, Petitioner
pursued a post-conviction relief in the state courts in a motion for relief from
judgement, pursuant to the procedure set forth in MCR 6.500 et seq. In his postconvictioc. motion, Petitioner, essentially argued that he was deprived of his
constitutional right under the Due Process Clause of the Fourteenth Amendment,
U.S.Const.Amend.XIV.,

of notice/fair warning

that his alleged conduct of

instructing Complainant to insert her own finger into her vagina, was criminal
within the narrow and precise language of MCL §§ 750.520a(r) and 750.520b(l/(a).
Petitioner asserted further that his trial counsel rendered him a constitutionally
deficient performance, such that, counsel was not functioning as the "counsel"
guaranteed to him by the Sixth Amendment, U. S. Const .Amend.VI., men trial counsel
failed to move the trial court in a motion for dismissal or for a directed verdict
on the grounds that, Petitioner's right to due process was violated for failing to
received adequate notice that his alleged conduct was proscribed under MCL §
730.520b(l)(a), and that he also received ineffective assistance of appellate
counsel when appellate counsel failed: to raise the above-mentioned grounds on
direct appeal.
On October 5, 2015, the trial court issued an order denying Petitioner's
-19-

post-conviction motion under MGR 6.500 et seq. App. I. In denying Petitioner's
motion, the tidal court, reasoned, in part, as follows:
Significantly, the Court of Appeals did not broaden the
definition as [Petitioner] suggests. Rather, the definition is
simply broad enough to include self-penetration by coercion. In
this regard, engaging in sexual penetration with the victim for
purposes of the CSC-1 statute, does not necessitate that
[Petitioner], himself, oust actually conduct the intrusion. In
other words, the fact that the victim's finger was not intruded
into the body of another person, but rather, into her own, is not
immaterial, since the prohibited conduct (toes not require any part
of [Petitioner's] body to be in contact with the victim; coercing
of self-penetration is an offense under the statute. Therefore,
[Petitioner] had sufficient notice that is conduct was unlawful.
Trial Court Opinion of 10/5/15, at p.4 (emphasis and alteration added). Following
the trial court's order, Petitioner, in an application for leave to appeal the
trial court's decision, sought review of the trial court's decision in the MGQA,
in Docket No. 330875. On April 28, 2016, the MGQA, in standard form, denied
Petitioner's application on the premise that, "defendant failed to establish that
the trial court erred in denying his motion for relief from judgement." App. H.
Next, Petitioner approached the MSC in an application for leave to appeal the MQ0A
decision, in Case No. 153943. The MSC issued an order dated December 28 , 2016,
denying Petitioner's application, citing,

'DENIED, because the defendant has

failed to meet the burden of establishing entitlement to relief under MCR
6.508(D)." People v. Overton, 500 Mich 922 (2016); App. G. (uppercase letters in
original).
On March 21, 2017, Petitioner, pursued federal review of his conviction
through a petition for a writ of habeas corpus, pursuant to 28 U.S.C. § 2254, in
the United States District Court - Eastern District of Michigan ("District
Court"), in Case No. 2:17-cv-10892. In his petition, Petitioner, argued that his
conviction of CSC-I under MCL § 75Q.52Gb(l)(a), is based on constitutionally
insufficient evidence, in violation of the Due Process Clause of the Fourteenth
Amendment, U.S.Gonst.Amend.XIV., and that he was not afforded the notice required

-20-

by the Dae Process Clause of the Fourteenth Amendment, id., that his alleged
conduct was proscribed under MCL § 750.520b(l)(a), where the state trial court and
the MOQA,

in a manner inconsistent with the state's rules of statutory

interpretation, MCL § 8.3a; Macomb Go. Prosecuting Atty, 464 Mich, at 158,
judicially broadened the narrow and precise language of MCL § 750.520a(r), to
include "self-penetration" to the statute's unambiguous definition of "sexual
penetration". Id. For reasons discussed below, on June 4, 2019, the District Court
entered an Order denying Betitisaer's petition, App. C. The District Gourt,
however, granted a Certificate of Appealability with respect to Petitioner's lackof-notice claim. Id.
On June 28, 2019, Petitioner filed a timely Notice of Appeal in the District
Oourt. Petitioner then sought to expand the Certificate of Appealability to
include, inter alia, his sufficiency-of-the-evidence claim in a motion to the
United States Appeals Court for the Sixth Circuit. On November 19, 2019, in
No. 19-1736, the Sixth Circuit Court denied Petitioner's motion. App. B. In his
appeals brief, Petitioner, argued that his right to due process was violated when
the state failed to afford him constitutionally sufficient notice that his alleged
conduct was proscribed under, MCL § 75Q.52Qa(r), where the state trial court and
MCQA judicially broadened the statute's definition of "sexual penetration" to
include "self-penetration".
On July 31, 2020, the Sixth Circuit Court denied Petitioner's appeal of the
District Court’s decision, essentially citing that, "[b]ecause other courts have
understood near-identical statutes to cover coerced or directed g<=>i f-ppr»g>frr«f i on,
[Petitioner] cannot show an error significant enough to warrant habeas relief. We
AFFIRM." App. A. (alteration added)(uppercase letters in original). In affirming
the District Court's decision, the Sixth Circuit Gourt, in part, concluded that:
But even if Overton offers a plausible, perhaps even the
best, reading of the statute, our analysis focuses on whether
Overton had fair notice chat Michigan courts could have found that
his conduct violated the first-degree criminal sexual conduct
-21-

statue.
Until Overton1s case, Michigan courts had never decided
whether coerced self-penetration fell under Michigan's sexual
penetration statute. But other jurisdictions have interpreted
similarly worded statutes to cover conduct nearly identical to
Overtoil's, (emphasis added). For instance, the Ninth Circuit held
that a defendant who caused "his victim to penetrate herself"
committed sexual penetration under a Guam statute identical to
Michigan's. Guam v. Quidachay, 374 F.3d 820, 822 (9th dr.2004).
There, the victim's "finger became an object operating at [the
defendant’s] command. [The defendant] successfully and criminally
intruded with this object into a body which was not his • • • • He
engaged in sexual penetration with the victim." Id. (emphasis
added)(alteration and ellipses in original). Considering
similarites between the conduct and the statute here and those in
Quidachay, it seems unlikely that Overton's state criminal
conviction and unsuccessful appeal were so unexpected and
heterodox as to offend the Due Process Clause.
App. A.
The Sixth Circuit Court wait on to opine:that, other state courts have found
that digital self-penetration at another's behest can amount to sexual penetration
where the victim's finger acts as the defendant's "object," and cites decisions of
other jurisdictions that include, Kirby v. State, 625 So.2d 51, 55 (Fla. Dist. Ct.
App.

1993)(finding

conduct

identical

to

Overton's

to

constitute

sexual

penetration); People v. Keeney, 29 Cal Rptr.2d 451, 453 (Cal. Ct. App.
1994)(same). App. A. In the end, Overton needed only to know that his conduct was
punishable under the statute, and not under the exact rationale the Michigan court
would use. See Kelsey v. Pope, 809 F.3d 849, 866 (6th Cir.2@i6). Id. Both Kirby
end Keeney, which held that forced self-penetration constituted sexual penetration
under similar statutes as Michigan's, suggest that a state court could have found
Overton's conduct criminalized by the Michigan statute. Id. (emphasis added).
Petitioner submits that the Sixth Circuit Gourt's reliance on Quidachay,
Kirby, and Keeney, as involving conduct identical to Petitioner's to constitute
sexual penetration suggest that a Michigan court could have found Petitioner's
■

»

;

r

conduct criminalized under MCL § 75Q.52Qa(r), is, at best, misplaced.

-22-

Michigan Rules of Statutory Interpretation
Under Michigan law, "[w]hen interpreting a statute, [the] primary goal is to
ascertain and give effect to the Legislature's intent." People v. Sharp, 502 Mich
313, 327 (2018)(citation omitted)(alteration added). "If the statute's language is
clear and unambiguous, [it is] assume[d] that the Legislature intended its plain
meaning and [to] enforce the statute as written." Id. (alteration added). In doing
so, we assign each word and phrase its plain and ordinary meaning within the
context of the statute. Id. A court ’\nust also avoid any construction that would
render any part of a statute. surplusage or nugatory, if possible." Id. "Criminal
statutes are to be strictly construed," and cannot be extended beyond their clear
and obvious language. People v. Jahner, 433 Mich 490, 498 (1989). Finally, "[i]f
the language is unambiguous, judicial construction is precluded. Macomb Go.
Prosecuting

Atty v.

Murphy,

464 Mich 149,

158

(2001)(internal

citations

omitted)(alteration added).
First-Degree Criminal Sexual Conduct Statute
As written and enacted by the Michigan Legislature, the Criminal Sexual
Conduct Conduct - First Degree statute reads as follows:
(1) A person is guilty of criminal sexual conduct in the
first degree if he or she engages in sexual penetration with
another person and if any of the following circumstance exists:
(a) That other person is under 13 years of age.
MOL § 750.520b(l)(a)(emphasis and underlining added). In turn, the Michigan
Legislature parses "sexual penetration" as:
sexual intercourse, cunnilingus, fellatio, anal intercourse, or
any other intrusion, however slight, of any part of a person's
body or any object into the genital or anal openings of another
person's body, but emission of semen is not required.
MCL § 750.52Qa(r)(emphasis and underlining added).
As mentioned above, under the Michigan rules of statutory interpretation, the
primary goal is to ascertain and give effect to the Legislature's intent. See

-23-

Sharp, 502 Mich, at 327. Because the language of the criminal statute is clear and
unambiguous, Michigan court are to assume that the Legislature intended its plain
meaning and for the statute to by enforced as written. See Id. When assigning each
word and phrase its plain and ordinary meaning within the context of the statute,
it is obvious that, in defining the phrase "sexual penetration", the Legislature's
intent is to require one person to physically penetrate another person. See Id.;
see also MCL § 750.520a(r). A litany of Michigan judicial decisions confirms this
requirement.
In confirming Petitioner's conviction of CSC-1 under, MCL § 750.520b(l)(a),
and rejecting his sufficiency-of-the-evidence claim that there was no evidence to
prove the essential element of "sexual penetration" as defined under MCL §
75Q.520a(r), the MQOA incorrectly concluded that:
The use of the words "any part of a person's body" is another
way of saying "any human body part." Thus, sexual penetration
under MCL 750.520a(r) includes an intrusion of any human body part
into die genital opening of another person. Here, Overton was
engaged In the intrusion of a human body part - a finger - into
the genital opening of another person's body - the victim's vagina
- wnen the victim obeyed Overton's instruction to digitally
penetrate herself • • • •
MQOA Per Curiam Opinion (10/31/2013), Docket Ho. 308999, at p.4. In a bid to
rationalize its expansion of the narrow and precise language of MCL § 750.520a(r)
to include "self-penetration" to the statutory definition of "sexual penetration",
thie MQOA wrote in a footnote:
Sexual penetration would still exist under MCL 750.52Qa(r) if
either Overton, himself, digitally penetrated the victim's genital
or anal openings, or Overton instructed the victim to digitally
penetrate his own anal opening. In both scenarios, there is an
intrusion of a human body part into the genital or anal openings
—--------•_
of another
person s i—i-body • • * in contrast, if Overton had simply
digitally penetrated himself in the victim's presence, he would
not be engaged in sexual penetration under MCL 750.520a(r) because
he would not be engaged in the intrusion of a human body part into
the genital or anal opening of another person; rather, he would be
engaged in the intrusion of a human body part into himself.
id •» at p.4, n.2.

-24-

In her dissenting opinion, Michigan Supreme Court ('ftSCV) Justice McCormack
addressed the holding of the MOOA confirming Petitioner's conviction of CSC-1
under, MCL § 750.520b(l)(a). In stating that she would reverse Petitioner's
conviction of CSC-1, Justice McCormack, concluded that, the MOOA, in finding that
Petitioner has engaged in sexual penetration because he was responsible for the
victim's self-penetration, the MOOA ignored the plain language of the statute,
however, which requires the intrusion of "any part of a person's body" or "any
object"

into

"another person's

body."

People v.

Overton,

497 Mich 941

(2014)(emphasis in original); App. F., at p.2» Justice McCormack went on to opine
that:
"Another" is not defined in the statute but "[cjourts are to
accord statutory words their ordinary and generally accepted
meaning." The ordinary meaning of "another" is, of course, someone
else. In addition, the article "a" in the phrase "any body part of
a person's body" underscores the statute's distinction between the
person performing the penetration, on the one hand, and the person
being penetrated, on the other. The Court of Appeals missed this
distinction.
Nor can the victim's finger constitute an "object" for the
purposes of MCL 750.520a(r). While "object" is not defined within
the statute, the ordinary meaning does not include body parts. And
it is reasonable to infer that the Legislature did not view body
parts as encompassed within the term "object" since MCL
750.52Qa(r) specifically refers to them as a "part of a person's
body" aid as separate from an "object." If body parts could be
counted as objects, there would have been no need to separately
include "any part of a person' s body" in the statute; "object"
could have done the work. Indeed, there is no authority construing
the victim's own finger as an object for purposes of MCL
750.52Qa(r).
Finally, the application of the CSC-1 statute to the
defendant's conduct here is in conflict with the pattern of the
activities that are explicitly referred to in MCL 750.52Qa(r). As
examples of "sexual penetration," the statute lists "sexual
intercourse, cunnilingus, fellatio, anal intercourse." MCL
750.520a(r). The only acts enumerated are those requiring physical
contact between two people. Under the doctrine of ejusdem generis,
• • • the intrusions targeted by the statute are restricted to those
having the same character as the ones enumerated, i.e., acts
involving physical conduct between two people.
Id* (emphasis in original)(ellipses added).

-25-

In a separate dissenting opinion, MSC Justice Cavanagh, reasoned that:
Defendant's conviction for first-degree criminal sexual
conduct should be vacated because, on the basis of the plain
language of MCL 750.52Qa(r), there was insufficient evidence to
establish that defendant engaged in "intrusion, however slight, of
any part of a person's beefy or of any object into the genital or
anal openings of another person's body...." Specifically, I agree
that, under the plain language of the statute, a finger cannot
also constitute an "object" because to hold otherwise would render
surplusage the phrase "part of a person's body," contrary to the
rules of statutory interpretation. £ also agree that the phrase "a
person's body" when juxtaposed against the phrase "another
person's body" excludes the intrusion of an alleged victim's
finger into his or her own genital or anal openings at a
defendant's direction • • • •
[t]he text of the statute unambiguously supports defendant
and, as a result, it is up to the Legislature to amend the
statutory provisions, and thus provide adequate notice, if it
wishes to clarify that the statute's plain language is
inconsistent with its true intent • • • •
People

v.

Overton,

497

Mich

941

(2014)(emphasis

in

original) (ellipses

added)(citations omitted).
Due Process Requirement of Fair Warning/Adequate notice"
Before criminal liability may be imposed for violation of any penal law, due
process requires "fair warning '

•••

of what the law intends." McBoyle v. United

States, 283 U.S. 25, 27 (1931)(ellipses in original). It is necessary, at a
minimum, that a statute gives fair notice that certain conduct is prescribed* Rabe
v. Washington, 405 U.S. 313, 315 (1972); People v. Tunmon, 417 Mich 638, 655
(1983)(explaining the indisputable proposition that due process requires that
citizens "be apprised of conduct which a criminal statute prohibits"). In United
States v. Lanier, this Honorable Court, explained that there are three related
manifestations of the fair warning requirement:
First, the vagueness doctrine bars enforcement of a statute which
either forbids or requires the doing of an act in terms so vague
that men of coamon intelligence must necessarily guess at its
meaning and differ as to its application. Second, as a sort of
"junior version of the vagueness doctrine," the cannon of strict
construction of criminal statutes, or rule lenity, ensure fair
warning by resolving ambiguity in a criminal statute as to apply
it only to conduct clearly covered. Third, although clarity at the
-26-

>

requisite level may be supplied by judicial gloss on an otherwise
uncertain statute, due process bars courts from applying a novel
construction of a criminal statute that neither the statute nor
any prior judicial decision has fairly disclosed to be within its
scope. In each of these guises, the touchstone is whether the
statute, either standing alone or as construed made it reasonably
clear at the relevant time that the defendant's conduct was
criminal.

520 U.S. 259, 266-267 (1997)(alteration added). Constitutionally, said the Lanier
Court, fair warning is given only if an ambiguity in a criminal statute is
construed to apply to conduct that the statute clearly designates as criminal.
Id., at 266.
Msvel Construction of a Criminal Statute
Prior to Petitioner's alleged conduct, to sustain a conviction of CSC-I
under, MCL § 750.520b(l)(a), as apparent in a long line of judicial decisions,
Michigan courts have interpreted the statutory definition of "sexual penetration"
as requiring the intrusion of "any part of a person's body" or "any object" into
"another person's body," MCL § 750.520a(r)(emphasis added), or requiring one
person to physically penetrate another person. See Id. (emphasis added).
For the first time in Petitioner's case, however, the MGOA expanded the
narrow and precise statutory language of MCL § 750.52Ga(r), to encompass "self­
penetration" based on the allegation that Petitioner instructed Ooaplainant to
insert her own finger into her vagina.

In expanding the narrow and

precise

statutory language of MCL § 75Q.52Qa(r), to include "self-penetration" to the
statute's

definition

of

"sexual

penetration,"

the MCQA applied

construction of the statue that neither the statute

a

novel

nor any prior judicial

decision has fairly disclosed to be within its scope, see Lanier, 520 U.S., at
266-267, and in doing so, violated the Due Process Clause of the Fourteenth
Amendment.

U.S.Const.Amend.XIV.

Further,

if the

statute did forbid

"self­

penetration," which it does not, it does so in terms so vague that men of common
intelligence must necessarily guess at
application. See Lanier, 520
-27-

its meaning

and differ as

to its

U.S., at 266-267. Finally, MCL § 750.520a(r), either standing alone or as
construed did not make it reasonably clear at the relevant time that Petitioner's
conduct was criminal. See Id.
In affirming the District Court's decision, the Sixth Circuit Court found
that, its analysis focuses on whether [Petitioner] had fair notice that Michigan
courts could have found that his conduct violated the first-degree criminal sexual
conduct statute. See App. A., p.10. In reaching the conclusion that Michigan
courts could have found petitioner's conduct criminal under, MCL § 75G.52Gb(l)(a),
as defined by the definition of "sexual penetration*’ under, MOL § 750.52Qa(r), the
Sixth Circuit Court looked to judicial decisions of other states that have
interpreted similar statutes that found "self-penetration" to be criminal, such
as,

the cases of Kirby v. State, 625 So.2d 51, 55 (Fla. Dist. Ct. App.

1993)(finding conduct identical to Petitioner's to constitute sexual penetration);
;

and People v. Keeney, 29 Cal Rptr.2d 451, 453 (Cal. Ct. App. 1994)(same). App. A.,
at p.U. In addition to those cases, the Sixth Circuit Gourt points also to a
federal case, Guam v. Quidachay, 374 F*3d 820, 822 (9th Cir.2004). While each of
those cases do involve allegations of victim "self-penetration," they are clearly
distinguishable from the case presently at bar, in that, Petitioner's alleged
conduct does not involve force or coercion. For instance, in Quidachey, during an
armed robbery, defendant, at gun point, instructed the victim to remove her
clothes and to finger herself by inserting "her finger in her vagina. See Id.
In denying Petitioner habeas relief, the District Court looked to People v.
Hack, 219 Mich App 299 (1986),

and held that "it was not unexpected or

indefensible that the state court would read 'another person' as referring only to
someone other than defendant • • • • " PageID.1855. In Hack, the MQOA found that the
definition of "sexual penetration with another" in the sexual conduct statute
included an act where a defendant directed a person to engage in sexual
penetration with another third person. Hack, 219 Mich App, at 303.
-28-

Contrary to the District Court * s decision, the Michigan statute's clear and
narrow definition of "sexual penetration" along with a litany of Michigan judicial
decisions interpreting the statute's plain language, make it clear that "sexual
penetration" requires one person to physically penetrate another person. Unlike
Hack, where there was penetration by one of "another," it would be completely
unexpected and indefensible for the clear language of MCL § 750.52Qa(r) to
encompass the act of self-penetration. Each of the judicial decisions cited by the
District Court and the Sixth Circuit Court held that self-penetration can satisfy
the element of "sexual penetration" within that district.
In bbth the District Court and the Sixth Circuit Court, Petitioner, cited the
case of State v. Bryant, 670 A.2d 766 (R.I. Sup. Ct. 19%), which the Sixth
Circuit Court acknowledged, but gave inadequate consideration despite being
virtually indistinguishable from Petitioner's case. In Bryant, the Supreme Court
of Rhode Island was tasked with addressing a statutory definition of "sexual
penetration" that is identical to the one at issue here. There, defendant was
charged with first-degree molestation sexual assault, pursuant to Rhode Island
General Laws ("R.I. Gen. Laws") § 11-37-8.1, in which the defendant directed a 5
year old child to insert her own finger into her vaginal orifice. Bryant, 670
A.2d, at 799. The statute under which Bryant was charged requires the same two
essential elements of MCL § 75O.520b(l)(a). Pursuant to R.I. Gen. Laws § 11-378.1: (1) the defendant must engage in sexual penetration of the victim and (2) the
victim is age 13 or younger. State v. Girauard, 561 A.2d 882 (R.I. 1989)(citation
omitted).
"Sexual Penetration" is statutorily defined as:
"Sexual intercourse, curmilingus, fellatio, and anal intercourse,
or any other intrusion, however slight, by any part of a person's
body or by any object into the genital or anal openings of another
person's body, but emission of semen is not required."
R.I. Gen. Laws § ll-37-l(8)(emphasis added); MCL § 750.520a(r). Reversing Bryant's

-29-

conviction of first-degree molestation sexual assault under R.I. Gen. Laws § 1137-8.1, the Supreme Gourt of Rhode Island, held that, under the state's rules of
statutory interpretation, the state did not prove a violation of the conduct
prohibited by § 11-37-8.1, as defined in § 11-37-1. Bryant, 670 A. 2d, at 799. In
reversing Bryant's conviction, the court reasoned that:
The trial justice in effect amended this definition by including
therein an interpretation that defendant engaged in sexual
penetration by directing the child to insert her own finger into
her vaginal orifice. Unfortunately, neither the trial justice nor
this Court has any authority to supplement or to amend a statute
enacted by the General Assenfoly.
Id. (emphasis added). As in Bryant, here, neither the state trial court or the
MOQA had any authority to judicially, enlarge or to amend by applying a novel
construction of a criminal statute, MGL § 750.52Qa(r), to conduct that neither the
statute nor any prior judicial decision has fairly disclosed to be within its
scope. Lanier, 520 U.S •» at 266 (citation omitted). In this instance, under
Michigan law with respect to the rules of statutory interpretation, because MCL §
750.520a(r) is a criminal statute

the state courts were required to strictly

construe the statute and to refrain from extending the statute beyond its clear
and obvious language. See Jahner, 433 Mich, at 498. Moreover, because the criminal
statute's language is unambiguous, not only was judicial construction precluded by
the state courts, but the statute was required to be enforced as written. See
Macomb Go. Prosecuting Atty, 464 Mich, at 158. Finally, in judicially expanding
the scope of the criminal statute to include "self-penetration" to its definition
of "sexual penetration," MCL § 75Q.520a(r), the state courts invaded the province
of the Michigan Legislature. It is up to the Legislature to amend the statutory
provision, and thus provide adequate notice, if it wishes to clarify that the
statute's plain language is inconsistent with its true intent. See People v.
IXicmoD, 417 Mich 638, 655 (1983).
Unforeseeable and Indefensible Judicial Expansion of a Criminal Statute and

-30-

Retroactive Application Thereof
The Ex Post Facto Clause of the United States Constitution, provides simply
that, "No State shall

•••

pass any

•••

ex post facto Law[.]" Rogers v. Tennessee,

532 U.S. 451, 456 (2O01)(citing Art I, §10, Cl.l); Carmell v. Ttexas, 529 U.S. 513,
521 (20Q0)(citation omitted); see also Mich Const 1963, art I, § 10. There are
four types of laws to which the ex post facto clause extends:
(1) Every law that makes an action done before the passing of the
law, and which was innocent when done, criminal; and punishes such
action; (2) every law that aggravates a crime, or makes it greater
than it was, when committed; (3) every law that changes the
punishment, and inflicts a greater punishment, than the law
annexed to the crime, when committed; and (4) every law that
alters the legal rules of evidence, and receives less, or
different, testimony, than the law required at the time of the
commission of the offense, in order to convict the offender.
Carmell, 529 U.S., at 522 (citing Calder v. Bull, 3 U.S. 386
(1798)(seriatim opinion of Chase, J.).
Rogers, 532 U.S., at 456 (citation omitted).
As the text of Art I, §10, CL.l, makes clear, it "is a limitation upon the
powers of the Legislature, and does not of its own force apply to the Judicial
Branch of Government. Regers, 532 U.S., at 456 (citation omitted). This Court,
however, has observed that limitations on ex post facto judicial decision making
are inherent in the notion of due process, id-, and that, challenges to
retroactive applications of judicial decisions must proceed under the Due Process,
not the Ex Post Facto Clause. See Id., at 460-462. "[cjore due process concepts,
said the Court, in Rogers, [include] notice, foreseeability, and, in particular,
the right to fair waming[.]" Id., at 459 (alteration added). Using these due
process principles, the Court has held that retroactive application of judicial
decisions that unforeseeably expand the scope of criminal liability can violate a
defendant's due process rights. See e.g., Marks v. United States, 430 U.S. 188,
190 (1977); Bouie v. City ©f Golumbia, 378 U.S. 347, 351 (1964).
"[A]n unforeseeable judicial enlargement of a criminal statute, applied
retroactively, operates precisely like an ex post facto law, such as Art I, §10,
-31-

Cl.l, of the Constitution forbids • • • • " If a state legislature is barred by the Ex
Post Facto Clause from passing such a law, it must follow that a State supreme
court is barred by the Due Process Clause from achieving precisely the same result
by judicial construction. Marks, 430 U.S., at 192 (citing Bouie, 378 U.S., at 353354); People v. Wilson, 500 Mich 521, 531 (2017)(citation omitted). Here,
Petitioner, was charged with a single count of CSC-1 under, MCL § 75O.520b(l)(a),
on the basis of Complainant's allegation that Petitioner instructed her to insert
her own finger into ner vagina. At the time Petitioner was charged with CSC-1
under, MCL § 759.520b(l)(a), the prosecution was required to prove beyond a
reasonable doubt

that,

Petitioner "engage[d]

[Complainant] and [Complainant]

is

in

sexual penetration with

under 13 years

of age." See MCL §

750.520b(l)(a)(emphasis and alteration added). As used in the statute, the phrase
"sexual penetration" is statutorily defined, in relevant part, as: "any other
intrusion, however slight, of any part of a person's body or any object into the
genital ... opening[] of another person's body, but emission of semen is not
required." MCL § 750.520a(r)(alteration added). Until Petitioner's case, as
evident in a long line of judicial decisions, Michigan courts have never decided
whether instructed "self-penetration" fell under the criminal statute, and have
interpreted its plain language as requiring sexual penetration of one person by
another.
To ensure Petitioner's conviction of CSC-1 under, MCL § 750.520b(l)(a), on
the allegation of Petitioner instructing Complainant to insert her own finger into
her vagina,

the state trial court, and later,

the M00A,

engaged in an

unforeseeable and indefensible judicial expansion of the statutory definition of
"sexual penetration" to include "self-penetration," under MCL § 750.520a(r), and
in doing so, deprived Petitioner's due process right to fair waraing/adequate
notice of what the law intends. See McBoyle v. United States, 283 U.S. 25, 27
(1931).
-32-

Further, pursuant to the rules of statutory interpretation with respect to
criminal statutes, both the state trial court and the MOOA were required to
strictly construe, Jahner, 433 Mich, at 498, and enforce the statute as written.
Sharp, 502 Mich, at 327. Mien interpreting a statute, the primary goal is to
ascertain and give effect to the Legislature's intent. Id. When construed
according to its plain and ordinary meaning within the context of the statute, its
obvious that, in defining the phrase "sexual penetration," the Legislature's
intent is to require one person to physically penetrate another person. Id.; MCI. §
750.520a(r). Simply put, because the language of both MCL §§ 750.520b(l)(a) and
750.52Qa(r), is dear and unambiguous, judicial construction wss precluded. Macomb
Go. Prosecuting Atty, 464 Mich, at 158.
In Bouie v. City of Colunbia, the Court considered the South Carolina Supreme
Court's retroactive application of its construction of the State's criminal
trespass statute to the petitioner's in that case. The Court went on to opine
that:
The statute prohibited "entry upon the land of another • • •
after notice from the owner or tenant prohibiting such entry • • • •
The South Carolina court construed the statute to extend to
patrons of a drug store who had received no notice prohibiting
their entry into the store, but had refused to leave the store
when asked. Prior to tne court's decision, South Carolina cases
construing the statute had uniformly held that conviction under
the statute required proof of notice before entry. None of those
cases, moreover, had given the "slightest indication that, that
requirement could be satisfied by proof of the different act of
remaining on the land after being told to leave."
Rogers, 532 U.S., at 457 (citing Bouie, 378 U.S., at 349 n.l). The Court held that
South Carolina court's retroactive application of its construction to the store
patrons violated due process. Reviewing decisions which held criminal statutes
"void for vagueness" under the Due Process Clause, we noted that this Court has
often recognized the basic principle that a criminal statute must give fair
warning of the conduct that it makes a crime." Id., at 457 (citing Bouie, 378
U.S., at 350).
-33-

Not unlike Bouie, here, the criminal statute prohibited die "engag[ing] is
sexual penetration with another person

• • • *» "

MCL § 75Q.520b(i)(a), " * • • or any

other intrusion, however slight, or any part of a person's body or any object into
the genital

•••

opening[] of another person

• t * •

" MCL § 75Oi.520a(r)(emphasis,

ellipses, underlining and alteration added). The MCOA construed the statute to
extend its definition of "sexual penetration" to include "self-penetration." See
Id. Prior to the decision of the MQOA, Michigan cases construing the statute had
uniformly held that conviction under MCL § 750.520b(l)(a), required the physical
penetration of me person by another person. See Id. While the prosecutor, state
courts, federal District Court, and the Sixth.Circuit Court, allude to People v.
Hack, 219’ Mich App 299 (1986), for the proposition that a Michigan court had
previously

addressed

"self-penetration"

as

being

criminal

under

MCL

§

750.520b(l)(a) and MCL § 750.520a(r), Hack involved the defendant directing a
person to engage in sexual penetration with another third person, id., at 303,
which is conduct clearly distinguishable from Petitioner's alleged conduct in this
case.
Both the District Court and the Sixth Circuit Court looked to judicial
decisions of other state courts for the same proposition. See Kirby v. State, 625
So.2d 51, 55 (Fla. Dist. Ct. App. 1993); People v. Keeney, 29 Cal Rpter.2d 451,
453 (Cal. Ct. App. 1994); and Guam v. Quidaehey, 374 F.3d 820, 822 (9th Cir.2004).
In those cases, unlike Petitioner's, involve victims being forced to penetrate
themselves at gunpoint or by force. In addition, Petitioner can not be required to
know every holding in every jurisdiction before asserting a fair notice violation.
See Rogers, 532 U.S., at 464 ("Due process, of course, does not require a person
to apprise himself of the common law of all 50 States in order to guarantee that
his actions will not subject him to punishment"). After all, "[i]t would be a rare
situation in which the meaning of a statute of another State sufficed to afford a
person "fair warning" that his own State's statute meant something quite different

-34-

from what its words said." Bouie, 378 ILS., at 359-360. Unlike Hack, where there
was penetration by one of "another," it would be completely unexpected and
indefensible for the clear language of MCL § 750.520a(r) to encompass the act of
"self-penetration." Moreover, Hack is distinguishable from Petitoner's case
because the court held forcing someone to penetrate another (i.e., third person
penetration) fits the definition of "sexual penetration" under, MCL § 759.52Qa(r).
The key distinction is that there was penetration by another, which again is not
the same as "self-penetration." Many statutes from other states with similar
language to the Michigan statute, do include self-penetration as a prohibited
conduct and clearly states so in the definition. For instance, in Rhode Island,
'"[sjexual penetration' means sexual intercourse, cunnilingus, fellatio, and anal
intercourse, or any other intrusion, however slight, by any part of a person's
body or by any object into the genital or anal openings of another person's body,
or the victim's own body upon the accused's instruction • • • • " 11 R.I. Gen. Laws §
11-37-1 (emphasis added). Self-penetration was only criminalized after the statute
was amended to Include an intrusion of the victim's body upon the accused's
instruction. See also Va. Code Ann. § 18.2-67.2; Wis.Stat.Ann. § 940.225; Minn.
Sta£.Arm. § 609.341.
In the instant case, the rulings of the state Courts that self-penetration,
where there is no contact with another person, is included within the statutory
definition of sexual penetration, the state courts' adjudication of Petitioner's
claim involved an objectively unreasonable application of, clearly established
federal law, as determined by this Court in Bouie, because the adjudication
impermissibly expanded the "narrow and precise statutory language" and amounted to
a retroactive application of a new interpretation of a criminal statute, in
violation of the Due Process Clause. The facts before the Court in this case
operate as a bar for a conviction of criminal sexual conduct in the first degree
under the Michigan statute because an essential element of the crime is missing -35-

penetration by one of another.
Procedural Default Under MCR 6.5Q8(D)(3)(a)-(b)
Pursuant to MCR 6.508(D)(3), because Petitioner raised grounds in his post­
conviction motion under MCR 6.500 et seq., that could have been raised on appeal
from the conviction and sentence, in order to obtain relief, Petitioner, must
demonstrate "good cause" for his failure to raise such grounds on appeal, MCR
6.508(D)(3)(a), and "actual prejudice" from the alleged irregularities that
support his claim for relief, MCR 6.508(D)(3)(b). Actual prejudice means that, in
a conviction following a trial, but for the alleged error, Petitioner, would have
had a reasonably likely chance of acquittal. MCR 6.508(D)(3)(b)(i). People v.
Swain, 288 Mich App 609, 630 (2010). The "good cause" requirement of MCR
6.508(D)(3)(a), can be established by proving ineffective assistance of counsel.
People v. Reed, 449 Mich 375, 378 (1995). In addition, the trial court may waive
the "good cause" requirement if it concludes that there is a significant
possibility that Petitioner is innocent of the crime. MCR 6.508(D)(3)(b).
Ineffective Assistance of Trial and Appellate Counsel
The Counsel Clause of the Sixth Amendment, as applied to the States through
the Due Process Clause of the Fourteenth Amendment, U.S.CQnst.Amends.VX.;XIV.,
guarantees a criminal defendant the right to "Assistance of Counsel for his
defense." Strickland v. Washington, 466 D.S. 668, 685 (1984). The right to counsel
is the right to the effective assistance of counsel. Id., at 686 (citation
emitted). Under Strickland,

there are two components to prove a claim of

ineffective assistance of counsel. First, the Petitioner must show that counsel's
performance was deficient. Second, the Petitioner must show that the deficient
performance prejudiced the defense. Id., at 687. In Evitts v. tucey, 469 U.S. 387
(1985),

this Court held that,

the Due Process Clause guarantees criminal

defendants the effective assistance of appellate counsel on an appeal as of right.
Claims of ineffective assistance of appellate counsel are subject to the

-36-

Strickland standard as wall. Evitts, 469 U.S., at 392 (citations omitted).
While it is true that Petitioner could have raised the issue of "fair
warning/inadequate notice" on his appeal as of right in the MOOA, Petitioner, has
"good cause" for his failure to do s© in the form of ineffective assistance of
trial and appellate counsel. Here, Petitioner's trial counsel rendered him a
constitutionally deficient performance, such that, counsel was not functioning as
the "counsel" guaranteed to Petitioner, when counsel failed to move the trial
court in a motion for dismissal on the basis of a lack of "fair waming/inadequate
notice." Petitioner, received no prior notice that his alleged conduct was
criminal under MCL § 75Q.520b(i)(a); MCL 750.52Ca(r). Any reasonably competent
trial attorney would have known petitioner had a due process right that entitled
him to "fair warning," and that the judicial amendment to the criminal statute to
encompass his alleged conduct deprived him of that right. In addition, Petitioner,
was deprived of his due process right to the effective assistance of appellate
counsel on his appeal as of right wnen his appellate attorney failed to identify
and raise on Petitioner's direct appeal Petitioner's ineffective assistance of
trial counsel claim where trial counsel failed to file a motion for dismissal on
the basis of inadequate notice. Strickland, 466 U.S., at 687; Evitts, 469 U.S., at
392. Any reasonably competent appellate attorney would have identified and raised
the issue on direct appeal. Had trial counsel moved for dismissal on the basis of
inadequate notice, it could have very well resulted in dismissal of the charge
against him. Strickland, 466 U.S., at 688. Had appellate counsel raised the deadbang winner on direct appeal, there is a substantial probability that his charge
of CSC-I under MCL § 750.520b(l)(a); MCL § 750.520a(r), would have been vacated in
the appellate court. Id. Petitioner's trial counsel's and appellate counsel's
representation fell below an objective standard of reasonableness. Id., at 688689.
Finally, Petitioner is innocent of the offense of CSC-I under MCL §
-37-

75O.520b(l)(a), and would have been acquitted on the charge had it not been for
the unconstitutional judicial amendment to MCL § 750.520a(r).

In rejecting

Petitioner's fair notice claim, the trial court essentially addressed the merits
which constituted a decision, even though the state court found his case
procedurally barred. See Gunn v. Mitchell, 775 F.3d 345, 362 (6th Cir.2014).
Oandusion
With respect to Petitioner's sufficiency-of-ths-evidence claim under Jackson,
"after viewing the evidence in the light most favorable to the prosecution, [no]
rational trier of fact could have found the essential elements of the crime [of
CSC-I] beyond a reasonable doubt, as required by the Due Process Clause. Id., at
319 (alteration added). As such, in sustaining Petitioner's conviction of CSC-1
under, MCL § 750.520b(l)(a), the state court reached a decision that was contrary
to, or involved an objectively unreasonable application of Jackson and Winship,
which resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence. Williams v. Taylnr, 529 U.S. 362, 412-413
(2003). Reasonable jurists, including two Justices of the MSC, App. F., would find
the District Court and Sixth Circuit Gourt's assessment of the claim debatable or
wrong.
With respect to Petitioner's "fair warning/inadequate notice" claim undar
Bouie, Petitioner's conviction of CSC-I under MCL § 75O.520b(l)(a), based on a
novel construction of MCL § 750.520a(r) by the state courts which broadened the
narrow and precise language of the criminal statute to include "self-penetration"
to the statutory definition of "sexual penetration." The Judicial construction of
the criminal statute is unexpected and indefensible by reference to the law which
had been expressed prior to Petitioner's alleged conduct. The plain and ordinary
language of the statute precluded the state court's judicial construction. The
plain and ordinary language makes clear that the Legislature's intent was to
require the sexual penetration of one person by "another" person. As

-38-

such, Petitioner did not receive the "fair warning" required by the Due Process
Clause under Bouie, that his alleged conduct was prescribed by MCL § 750.520a(r).
Put differently, Petitioner, could not have had fair warning that the Michigan
courts would expand the precise language of the statute to include self­
penetration. Because of the plain and ordinary language of the criminal statute a
Michigan court could have not reasonably interpreted MCL § 750.520a(r) as
criminalizing "self-penetration." The state court's adjudication of Petitioner's
/■

"fair warning/inadequate notice" claim resulted in a decision that was contrary to
and

involved an objectively unreasonable application of Buie.

Again,

any

reasonable jurist, including two justices of the MSC, App. F., would find the
District Court and Sixth Circuit Court's assessment of the claim debatable or
wrong. See Williams, 529 U.S., at 412-413. Based on Petitioner's constitutional
violations, the Sixth Circuit Court concluded that it would have to speculate on
where to draw the line between innocent and criminal conduct. Therefore, if the
Court has to speculate than surely a person of ordinary intelligence would have to
speculate by guessing if his contemplated conduct meant something different than
the text of the statutory code. After all, "individuals rely on the laws until
they are explicitly changed." Carmell, 529 U.3., at 513.
In this case, Petitioner, has been made to suffer the onus of a criminal
conviction where the prosecution failed to meet its burden of proving beyond a
reasonable doubt every element of the offense of CSC-I under MCL § 750.520b(l)(a).
Petitioner, has also been made to suffer a mandatory minimum sentence of 25 years'
imprisonment, MCI, § 750.520b(2)(b), and mandatory lifetime electronic monitoring,
MCL § 750.520n(l), which entails having to don a tether from the day of his
release from prison and until the day he dies. MCL § 791.285(l)(a). A sentence
that the trial court acknowledged was excessive given the facts of the case and
Petitioner's lack of a criminal record.
-39-

RELIEF REQUESTED
WHEREFORE, the reasons stated above, Petitioner prays that this Honorable
Court issues a Writ of Certiorari *
Most respectfully submitted,

CcAVillrfj

RANDALL SGOTT OVERTON
Pro se Prisoner Petitioner
Bellamy Creek Correctional Facility
1727 West Bluewater Highway .
'Ionia, Michigan 48846

Date:

DECLARmON
I, Randall Scott Overton, declares, pursuant to 28 U»S«C« § 1746, that the
factual assertions contained in this petition are true and correct to the best of
my information, knowledge, and belief.
I

/0i2py?JpT

/Q -2Z.-ZQ

Randall Scott Overton

Date:

-40-

